      Department of Homeland Security





            Letter for FY 2012 DHS Consolidated 

                 Financial Statements Audit 





OIG-13-71                                           April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 5 2013

MEMORANDUM FOR:              Patrick Moore
                             Chief Financial Officer
                             Domestic Nuclear Detection Office

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Domestic Nuclear Detection Office’s Management Letter
                             for FY 2012 DHS Consolidated Financial Statements Audit

Attached for your information is our final report, Domestic Nuclear Detection Office’s
Management Letter for FY 2012 DHS Consolidated Financial Statements Audit. This
report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in the DHS
FY 2012 Annual Financial Report. We do not require management’s response to the
recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security Domestic Nuclear Detention Office
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department)
as of September 30, 2012 and the related statements of net cost, changes in net position and custodial
activity, and combined statement of budgetary resources for the year then ended (referred to herein as
the “fiscal year (FY) 2012 financial statements”). The objective of our audit was to express an opinion
on the fair presentation of these financial statements. We were also engaged to examine the
Department’s internal control over financial reporting of the FY 2012 financial statements, based on
the criteria established in Office of Management and Budget (OMB), Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.

Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope
of our audit that prevented us from performing all procedures necessary to express an unqualified
opinion on the DHS’ FY 2012 financial statements and internal control over financial reporting. In
addition, the FY 2012 DHS Secretary’s Assurance Statement states that the Department was able to
provide qualified assurance that internal control over financial reporting was operating effectively at
September 30, 2012. We have not considered internal control since the date of our Independent
Auditors’ Report.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in
the paragraph above, included internal control deficiencies identified during our audit, that
individually, or in aggregate, represented a material weakness or a significant deficiency.

The Domestic Nuclear Detection Office (DNDO) is a component of DHS. We noted certain matters,
related to DNDO, that are summarized in the Table of Financial Management Comments on the
following pages, involving internal control and other operational matters that are less severe than a
material weakness or a significant deficiency, and consequently are reported separately to the Office of
Inspector General (OIG) and DNDO management in this letter. These comments and
recommendations, all of which have been discussed with the appropriate members of management, are
intended to improve internal control or result in other operating efficiencies. The disposition of each
internal control deficiency indentified during our FY 2012 audit – as either reported in our Independent
Auditors’ Report, or herein – is presented in Appendix A.

We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of the DHS’ and DNDO’s management, the DHS OIG,
the U.S. OMB, the U.S. Congress, and the Government Accountability Office, and is not intended to be
and should not be used by anyone other than these specified parties.

Very truly yours,




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                               Domestic Nuclear Detection Office
                            Table of Financial Management Comments
                                       September 30, 2012




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

 Comment
 Reference   Subject                                                                      Page

FMC 12-01    Deficiencies in the Operating Expense Process                                 2
FMC 12-02    Deficiencies Related to Monitoring Undelivered Orders                         3


APPENDIX

 Appendix    Subject                                                                      Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and    4
             Recommendation (NFRs)




                                                  1

                                   Domestic Nuclear Detection Office
                                   Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Deficiencies in the Operating Expense Process (NFR Nos. DNDO 12-01 and DNDO 12­
01a)

       During testwork over operating expenses for the period October 1, 2011 to March 31, 2012, we
       noted the following:
       •	 For 33 out of 33 expenses, the Core Accounting System did not record Accounts Payable
           (United States Standard General Ledger (USSGL) account 2110), Delivered Orders –
           Obligations, Unpaid (4901), and the relevant asset or expense account at the time goods or
           services are received. Instead, the Core Accounting System records Delivered Orders –
           Obligations, Paid (4902) and the related asset or expense account at the time payment is
           made. Domestic Nuclear Detection Office (DNDO) instead records an estimated accrual for
           assets, expenses, and accounts payable related to the goods or services that have been
           received, but not yet paid for. As a result, the items are not recorded in the general ledger
           (GL) until paid for.
       •	 For 17 out of 33 expenses, Intragovernmental Payment And Collection (IPACs) do not
           require contracting officer (CO), contracting officer’s technical representative (COTR), or
           Authorized Certifying Official (ACO) approval prior to the funds transfer. Therefore, DNDO
           was unable to provide documentation of when goods/services were received.
       •	 For 4 out of 33 expenses, DNDO associated the incorrect trading partner identification
           numbers with Federal vendors.

       During testwork over operating expenses for the period April 1, 2012 – August 31, 2012, we
       noted the following:
       •	 For 18 out of 18 expenses, the Core Accounting System did not record Accounts Payable
           (USSGL account 2110), Delivered Orders – Obligations, Unpaid (4901), and the relevant
           asset or expense account at the time goods or services are received. Instead, the Core
           Accounting System records Delivered Orders – Obligations, Paid (4902) and the related asset
           or expense account at the time payment is made. DNDO instead records an estimated accrual
           for assets, expenses, and accounts payable related to the goods or services that have been
           received, but not yet paid for. As a result, the items are not recorded in the GL until paid for.
       •	 For 6 out of 18 expenses, IPACs do not require CO, COTR, or ACO approval prior to the
           funds transfer. Therefore, DNDO was unable to provide documentation of when
           goods/services were received.
       •	 For 3 out of 18 expenses, DNDO was unable to provide sufficient supporting documentation
           for invoices for the Grant samples transaction amount.

       During testwork over operating expenses for the period September 1, 2012 – September 30, 2012,
       we noted the following:
       •	 For 3 out of 3 expenses, the Core Accounting System did not record Accounts Payable
          (USSGL account 2110), Delivered Orders – Obligations, Unpaid (4901), and the relevant
          asset or expense account at the time goods or services are received. Instead, the Core
          Accounting System records Delivered Orders – Obligations, Paid (4902) and the related asset
          or expense account at the time payment is made. DNDO instead records an estimated accrual
          for assets, expenses, and accounts payable related to the goods or services that have been
          received, but not yet paid for. As a result, the items are not recorded in the GL until paid for.




                                                     2

                                 Domestic Nuclear Detection Office
                                 Financial Management Comments
                                       September 30, 2012


       •	 For 1 out of 3 expenses, IPACs do not require CO, COTR, or ACO approval prior to the
          funds transfer. Therefore, DNDO was unable to provide documentation of when
          goods/services were received.
       •	 For 1 out of 3 expenses, DNDO was unable to provide sufficient supporting documentation of
          invoices for the Grant samples transaction amount.

       Recommendations:
       We recommend that DNDO:
       •	 Review the IPAC process to improve the validation and approval. The COTRs should record
          receipt of the services and approval of IPACs prior to the payment being posted.
       •	 Continue to implement a process during month-end to ensure the Coast Guard Finance Center
          (FINCEN) is recording the reclassifications. Additionally, DNDO should continue to review
          the Journal Voucher (JV) prior to FINCEN recording the entry into the Core Accounting
          System until all obligations coded incorrectly are liquidated.

FMC 12-02 – Deficiencies Related to Monitoring Undelivered Orders (NFR No. DNDO 12-02)

       During testwork over obligations for FY 2012, we noted the following:
       •	 DNDO’s service provider’s financial system, the Core Account System does not have
          adequate transaction codes to process upward/downward adjustments. Manual JV
          reclassifications are made to record GL 4801, GL 4871, GL 4310 and GL 4590 for the prior
          year recovery activity. DNDO does not have a process to separately capture upward
          adjustments (GL 4881, 4882, 4981, and 4982) that are part of the GL 4801 or GL 4901
          balance.
       •	 During their quarterly obligation review, management does not request sufficient support to
          determine if open obligations are valid.
       •	 During testwork over aged undelivered orders (UDOs) as of September 30, 2012, for 3 out of
          5 UDOs, the obligation was determined to be invalid as of September 30, 2012. This resulted
          in an overstatement of UDOs in the amount of approximately $342,000 and a likely
          overstatement of approximately $23,574,000.

       Recommendation:
       We recommend that DNDO prioritize reviewing aged UDOs and work closely with the Office of
       Procurement Operations to close out all aged UDOs with expired periods of performance.




                                                 3

                                                                                                             Appendix A
                                      Domestic Nuclear Detection Office
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012



                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                               MW        SD        NC        No.
12-01         Deficiencies in the Operating Expense Process                                                          12-01
12-01a        Deficiencies in the Operating Expense Process                                                          12-01
12-02         Deficiencies related to Monitoring Undelivered Orders (UDOs)                                           12-02

1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              4

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Domestic Nuclear Detection Office

   Acting Director
   Chief Financial Officer
   Chief Information Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-71
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
